No 20A
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, APPLICANT
v.
DUSTIN JOHN HIGGS
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION TO VACATE STAY OF EXECUTION ISSUED BY THE UNITED
STATES COURT APPEALS FOR THE FOURTH CIRCUIT, via email this 14th day of
January 2021.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

SERVICE LIST: USA V. DUSTIN JOHN HIGGS
MATTHEW LAWRY
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
601 WALNUT STREET
PHILADELPHIA, PA 19106
215-928-0520
MATTHEW_LAWRY@FD.ORG
STEPHEN H. SACHS
ROLAND PARK PLACE
830 W. 40TH STREET
BALTIMORE, MD 21211
410-243-4589
STEPHENHSACHS@GMAIL.COM

